No. 19-199
IN THE SUPREME COURT OF THE UNITED STATES
MANFREDO M. SALINAS, PETITIONER
V.

UNITED STATES RAILROAD RETIREMENT BOARD

CERTIFICATE OF SERVICE
It is hereby certified that all parties required to be served have been served with copies of
the BRIEF FOR THE RESPONDENT, via e-mail and first-class mail, postage prepaid, this 9th
day of December 2019.
ISee Attached Service Listj
As required by Supreme Court Rule 33.1(h), I certify that the document contain 3.953 words,
excluding the parts of the document that are exempted by Supreme Court Rule 33.1(d). I declare
under penalty of perjury that the foregoing is true and correct. Executed on
December 9, 2019

Noel J. Francisco
Solicitor General
Counsel of Record
Department of Justice
Washington, D.C. 20530-0001
(202) 514-2217
December 9, 2019
Due to the continuing delay in receiving incoming mail at the Department of Justice, in
addition to mailing your brief via first-class mail, we would appreciate a fax or email copy of
your brief If that is acceptable to you, please fax your brief to Charlene Goodwin, Case
Management Supervisor, Office of the Solicitor General, at (202) 514-8844, or email at
SupremeCtBriefsUSDOJ.gov. Ms. Goodwin's phone number is (202) 514-2217 or 2218.
Thank you for your consideration of this request.

19-0 199
SALINAS, MANFREDO M.
U.S. RAILROAD RETIREMENT BOARD

LISA S. BLATT
WILLIAMS & CONNOLLY LLP
725 TWELFTH STREET, NW
WASHINGTON, DC 20005
202-434-5000
LBLATT@WC.COM

